TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Efforts Have Been Made, but Manager and
                    Employee Noncompliance With Security
                    Policies and Procedures Puts Personally
                         Identifiable Information at Risk



                                         August 13, 2007

                              Reference Number: 2007-20-117




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  August 13, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Efforts Have Been Made, but Manager and
                                Employee Noncompliance With Security Policies and Procedures Puts
                                Personally Identifiable Information at Risk (Audit # 200620007)

 This report presents a summary of significant actions that have been accomplished by the
 Internal Revenue Service (IRS) and the security weaknesses identified in our prior audit reports
 issued during Fiscal Years 2003 – 2007. The overall objective of this review was to determine
 the progress the IRS has made in ensuring the security and privacy of personally identifiable
 information (PII) it maintains. The Consolidated Appropriations Act of 20051 requires each
 agency’s Inspector General to review the policies and procedures related to PII and conduct
 reviews at least every 2 years to ensure it is adequately protected.

 Impact on the Taxpayer
 The IRS processes and maintains PII for more than 130 million taxpayers who file their income
 tax returns with the IRS. While the IRS has accomplished several noteworthy actions to protect
 this information, managers and employees have not complied with established security
 procedures. As a result, PII is being unnecessarily exposed to unauthorized access and potential
 identity theft.

 Synopsis
 The American public and Congress have become increasingly concerned about the protection of
 PII and identity theft. This issue is a significant challenge for the IRS, considering nearly
 100,000 employees and contractors have access to tax return information processed on

 1
     Public Law 108-447, 118 Stat. 2268, 5 U.S.C. 522a.
                          Efforts Have Been Made, but Manager and Employee
                       Noncompliance With Security Policies and Procedures Puts
                               Personally Identifiable Information at Risk


approximately 240 computer systems and more than 1,500 databases. Some of those employees
are required to take sensitive taxpayer information out of the office on laptop computers to carry
out their audit and collection responsibilities, increasing the risk that information could be lost or
stolen.
The IRS has taken several noteworthy actions to protect taxpayer data in its possession. For
example, it has established a Security Services and Privacy Executive Steering Committee to
serve as the primary governance body for all matters relating to security and privacy issues in the
IRS. In addition, it has made steady progress each year in complying with the requirements of
the Federal Information Security Management Act of 2002.2 Of particular note is that nearly all
employees and contractors receive annual security awareness training.
However, our reviews during Fiscal Years 2003 – 2007 have identified persistent computer
security weaknesses that continue to jeopardize the security of PII. We continue to identify that
employees are not aware of the security risks inherent in their positions. Employees did not
sufficiently safeguard laptop computers and did not encrypt data on the computers. Employees
have also shown they are susceptible to social engineering techniques that hackers could use to
gain access to their systems, and they continue to ignore IRS policies on the use of email, which
increases potential security vulnerabilities. Even employees with key security responsibilities
continue to ignore standard security configurations, often for their own convenience.
Our audits have shown that managers provide employees access to systems and data they do not
need. In many cases, managers are not aware of the access capabilities of their employees. A
fundamental goal of the IRS’ computer modernization activities has been to provide more
information to employees to improve their effectiveness and efficiency. New systems being
developed will have the capability to provide even more information to these employees, which
could actually increase the risk that the privacy of taxpayer information will be violated. The
IRS will have to be more diligent in limiting employee access to a need-to-know basis.
We have also found that technical controls in modernized systems and the security infrastructure
are inadequate. Although industry guidance recommends that security controls be designed into
new systems early in the development process, security has not been at the forefront when new
systems are developed in the IRS. Waiting until systems are implemented to address security
controls will most likely cost significantly more than if security controls had been considered
during the development of the systems. We have also found that audit trails3 for detecting
inappropriate accesses to taxpayer information on modernized systems are not being reviewed
and retained.



2
  Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
3
  An audit trail is a chronological record of activities that allow for the reconstruction, review, and examination of a
transaction from inception to final results. Audit trails can be used to detect unauthorized accesses to PII.
                                                                                                                           2
                      Efforts Have Been Made, but Manager and Employee
                   Noncompliance With Security Policies and Procedures Puts
                           Personally Identifiable Information at Risk


It is clear that some IRS executives are not holding managers and employees accountable for
carrying out their responsibilities and for ensuring managers and employees are aware of the
security risks associated with their positions. For the IRS to make greater strides in improving
computer security and protecting PII, managers and employees must be aware of the security
risks inherent to their positions and consider security implications in their day-to-day activities.
Executives must clearly communicate expectations that procedures will be followed and take
appropriate actions when procedures are not followed.

Recommendations
Because we have already made recommendations related to the aforementioned issues in our
prior audit reports and the IRS is taking actions to address these deficiencies, no additional
recommendations were made. We will continue to monitor the IRS’ overall strategy and ability
to protect and secure PII in future security-related reviews, where we may evaluate and report on
the completion and effectiveness of actions taken to address security deficiencies.

Response
The IRS agreed that, while progress is being made, more needs to be done to ensure the issue of
privacy and security over PII is a fundamental and top priority. The IRS will continue to update
its systems, processes, and training so employees are aware of the steps they must take to prevent
taxpayer information from being compromised. Management’s complete response to the draft
report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report. Please
contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
General for Audit (Information Systems Programs), at (202) 622-8510.




                                                                                                       3
                            Efforts Have Been Made, but Manager and Employee
                         Noncompliance With Security Policies and Procedures Puts
                                 Personally Identifiable Information at Risk




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Management Has Taken Actions to Improve the Privacy of
          Sensitive Data ...............................................................................................Page 3
          Managers and Employees Are Not Complying With Established
          Security Policies and Procedures ..................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – List of Security-Related Audit Reports................................Page 21
          Appendix V – Management’s Response to the Draft Report .......................Page 22
          Efforts Have Been Made, but Manager and Employee
       Noncompliance With Security Policies and Procedures Puts
               Personally Identifiable Information at Risk




                    Abbreviations

IDRS          Integrated Data Retrieval System
IRS           Internal Revenue Service
PII           Personally Identifiable Information
                         Efforts Have Been Made, but Manager and Employee
                      Noncompliance With Security Policies and Procedures Puts
                              Personally Identifiable Information at Risk




                                             Background

The American public and Congress have become increasingly concerned about the protection of
personally identifiable information (PII)1 and identity theft. The Social Security Administration
reports identity theft is one of the fastest growing crimes in America and encourages every
citizen to protect his or her Social Security Number. The
Commerce Department estimates more than 50 million
                                                                     Identity theft is widely
identities were compromised in 2005, and the Federal Trade         reported as the largest and
Commission reported it receives about 20,000 contacts from          fastest growing crime in
consumers each week about identity theft.                          America. The Federal Trade
                                                                                 Commission receives
Several recent security breaches in private industry have           about 20,000 complaints or
made newspaper headlines. One recent example of identity             inquiries each week from
theft, which was widely reported in the news media on                consumers    about identity
December 14, 2006, linked identity theft to illegal                             theft.
immigration. Federal agents from the Immigration and
Customs Enforcement agency raided 6 meatpacking plants
in 6 States and arrested 1,282 illegal workers for stealing the identities of American citizens.
The investigation determined that illegal immigrants had obtained Social Security Numbers and
other PII from a variety of document fraud rings and vendors.
Because the Federal Government maintains a large quantity of PII, its agencies could be prime
targets for identity theft. The Internal Revenue Service (IRS) stores PII for more than
130 million individual taxpayers who file their income tax returns each year with the IRS. Each
tax return includes the filer’s name, address, Social Security Number, and other personal
information. Approximately 30 percent of the returns also include the names and Social Security
Numbers of at least one dependent. In addition, the IRS maintains PII on its employees and
contractors. The IRS identified the security of its computer systems as a high priority in its
2005 – 2009 Strategic Plan and designated security as a material weakness under the Federal
Managers’ Financial Integrity Act of 1982.2
The challenge to protect PII from unauthorized disclosure is related not only to the magnitude of
the data but also the complexity of ever-changing technology and the number of computer
systems the IRS operates. The IRS processes and maintains PII using more than 240 computer
systems and 1,500 databases. Most of its approximately 100,000 employees and contractors


1
  PII includes any information about an individual maintained by an agency including, but not limited to, education,
financial transactions, medical history, criminal or employment history, and information that can be used to
distinguish or trace an individual’s identity, such as name, Social Security Number, date and place of birth, etc.
2
  31 U.S.C. Sections 1105, 1113, 3512 (2000).
                                                                                                             Page 1
                           Efforts Have Been Made, but Manager and Employee
                        Noncompliance With Security Policies and Procedures Puts
                                Personally Identifiable Information at Risk



have access to at least some of these data on a daily basis. To compound the risk that
information could be lost or stolen, some IRS employees must take PII outside of their offices on
laptop computers to carryout their audit and collection responsibilities. The competing goals of
protecting PII and achieving workplace efficiencies become even more difficult as technology
evolves and becomes faster and more complex.
To reinforce requirements for agencies to secure PII, Congress passed the Consolidated
Appropriations Act of 20053 on December 8, 2004. The Act requires Federal Government
agencies to appoint a Chief Privacy Officer with the primary responsibility of privacy and data
protection. The Chief Privacy Officer is required to establish comprehensive policies and
procedures and test the procedures to ensure they are followed. The Act also requires each
agency’s Inspector General to review the policies and procedures related to PII and conduct
reviews at least every 2 years to ensure it is adequately protected.
This review was performed in the office of the Chief, Mission Assurance and Security Services,
at the IRS National Headquarters in Washington, D.C., during the period December 2006
through March 2007. This review relied on audit results from Treasury Inspector General for
Tax Administration security-related reports issued during Fiscal Years 2003 – 2007. The audits
referenced in this report were conducted in accordance with Government Auditing Standards and
are listed in Appendix IV. Detailed information on our audit objective, scope, and methodology
is presented in Appendix I. Major contributors to the report are listed in Appendix II.




3
    Public Law 108-447, 118 Stat. 2268, 5 U.S.C. 522a.
                                                                                           Page 2
                            Efforts Have Been Made, but Manager and Employee
                         Noncompliance With Security Policies and Procedures Puts
                                 Personally Identifiable Information at Risk




                                         Results of Review

Management Has Taken Actions to Improve the Privacy of Sensitive
Data
IRS executives and managers have taken several actions to protect PII. A Security Services and
Privacy Executive Steering Committee was established in June 2006 to serve as the primary
governance body for all matters relating to security services and privacy planning. The
Committee is chaired by the Chief, Mission Assurance and Security Services, and includes
representatives from each of the IRS business units. Each member is responsible for collecting
and reporting on all privacy and security areas of concern.
Another important action to create a strong security environment was taken by the IRS
Commissioner on June 1, 2006, when he issued an email to IRS managers emphasizing the
importance of safeguarding PII. The Commissioner instructed all managers to:
           Remind every IRS employee and contractor of their responsibility to safeguard
           taxpayer, employee, and all other personally identifiable information . . . and
           ensure that your employees are familiar with the policies and procedures the IRS
           has enacted to avoid privacy breaches.
The Commissioner has also continued his efforts to dispel the perception that security is solely
the responsibility of the Mission Assurance and Security Services organization by reminding
executives that all managers and employees are responsible for the security of PII.
The importance of protecting PII will be emphasized in a video scheduled for distribution to IRS
employees in the third quarter of Fiscal Year 2007. The video will include statements by the IRS
Commissioner and the Treasury Inspector General for Tax Administration. One such statement
made in the video will be, “. . . it is vital that every employee remain sensitive and vigilant to
their commitment and responsibility to protect government equipment and PII.” We believe
these high-level actions from the top level of the organization send a strong message to all
employees and are critical in transforming the IRS into a security-conscious organization.
The IRS has also made steady progress in recent years to comply with the Federal Information
Security Management Act of 2002.4 For Fiscal Year 2006, the IRS reported its computer




4
    Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                                                              Page 3
                         Efforts Have Been Made, but Manager and Employee
                      Noncompliance With Security Policies and Procedures Puts
                              Personally Identifiable Information at Risk



systems had a certification and accreditation5 rate of 95 percent, which is an improvement
over Fiscal Year 2005 when only 35 percent of the systems were certified and accredited.
During Fiscal Year 2006, the IRS reassessed the security risks of its computer systems, and we
are confident that the inventory is substantially complete and the risk categorizations of the
computer systems are accurate. The IRS also provided annual security awareness training to
nearly all of its employees and contractors.
The IRS satisfied a major requirement of the Consolidated Appropriations Act of 2005 by
appointing a Chief Privacy Officer to assume responsibility for privacy and data protection
policies. The Chief Privacy Officer completed a comprehensive assessment6 of the IRS privacy
and data protection procedures and made recommendations to strengthen the controls.
The IRS also established an Identity Theft Program Office to identify security threats to itself
and taxpayers and to develop approaches to best protect against the threats. To fulfill its
responsibilities, the Identity Theft Program Office contracted with Deloitte Consulting to
perform an identity theft risk assessment. The assessment, completed October 16, 2006,
identified 113 business processes containing taxpayer information and characterized 48 of those
processes as high priority from a risk perspective. IRS management selected 36 of the
high-priority processes for indepth reviews.

Managers and Employees Are Not Complying With Established
Security Policies and Procedures
While progress is being made, our prior reviews have identified persistent issues that continue to
place the privacy and security of PII at risk. It is clear that some IRS executives are not holding
managers and employees accountable for carrying out their responsibilities and are not ensuring
managers and employees are aware of the security risks associated with their positions. For the
IRS to make greater strides in improving computer security and protecting PII, managers and
employees must be aware of the security risks inherent to their positions and consider security
implications in their day-to-day activities. Executives must clearly communicate expectations
that procedures will be followed and take appropriate actions when procedures are not followed.
The remainder of this report highlights some of the most significant security and privacy issues
we have previously reported.




5
  Security certification is a comprehensive assessment of the management, operational, and technical security
controls in an information system, made in support of an accreditation, to determine the extent to which the controls
are implemented correctly and operating as intended. Accreditation is the official management decision given by
the owner of the information system to authorize the operation of the system and to explicitly accept the risks.
6
  Policy and Process Review – Protection of Personally Identifiable Information (PII), dated June 26, 2006.
                                                                                                             Page 4
                       Efforts Have Been Made, but Manager and Employee
                    Noncompliance With Security Policies and Procedures Puts
                            Personally Identifiable Information at Risk



Employees did not safeguard laptop computers7
The IRS lost at least 490 computers and other sensitive data from 387 separate incidents between
January 2, 2003, and June 13, 2006. For the
387 incidents, we determined it was unlikely that
176 incidents involved taxpayer data. For the remaining           We were unable to determine
                                                                 the full impact to the taxpayers
211 incidents, we analyzed the incident writeups as of               on many of the incidents
June 2006 and found 126 incidents contained sufficient             involving the loss or theft of
details to show that personal information for at least             computer equipment and/or
2,359 individuals was involved with the incidents. We                      taxpayer data.
were unable to identify the nature of the data loss and
the identity of taxpayers whose information may have
been lost for the other 85 incidents due to a lack of detail in the incident writeups.
Employee negligence contributed to some of the losses. For example, 111 incidents occurred
within IRS facilities, indicating employees were likely not storing their laptop computers in
lockable cabinets while the employees were away from the office. Further, because a large
number of laptop computers were stolen from vehicles and employees’ residences, employees
may not have secured their laptop computers in the trunks of their vehicles or locked their laptop
computers at home. Sufficient documentation was not available to evaluate the circumstances
surrounding most of the 387 incidents. However, we determined that at least 24 of the incidents
could have been prevented if employees had followed IRS policies and procedures.
    •   Fourteen incidents involved employees storing the laptop computers in unlocked
        vehicles, in the front seat or back seat of their vehicles, or forgetting to place computers
        into their vehicles.
    •   Seven incidents involved employees leaving computers on buses and trains and at
        airports.
    •   Three incidents occurred because employees checked their computers as luggage at an
        airport.
The 24 incidents involved personally identifiable information for 480 individuals. The loss of
these records, which consisted of taxpayer and employee information, could have been prevented
if employees had taken more care to safeguard the computers.
We obtained information on whether disciplinary actions were taken against the responsible
employees for 18 of the 24 incidents and found that only 1 employee involved in the 18 incidents
was disciplined. The IRS’ own guide for penalty determinations indicates the loss of Federal
Government property may result in discipline ranging from a written reprimand to a 14-day


7
 The Internal Revenue Service Is Not Adequately Protecting Taxpayer Data on Laptop Computers and Other
Portable Electronic Media Devices (Reference Number 2007-20-048, dated March 23, 2007).
                                                                                                     Page 5
                       Efforts Have Been Made, but Manager and Employee
                    Noncompliance With Security Policies and Procedures Puts
                            Personally Identifiable Information at Risk



suspension for a first offense. We believe disciplining employees for security violations
resulting from negligence or carelessness could deter others from neglecting their responsibilities
for protecting Federal Government property.
We recommended the Chief, Mission Assurance and Security Services:
    1. Provide employees periodic reminders of their responsibilities for protecting computer
       devices, which, at a minimum, should include storing laptop computers in locking
       cabinets in the office, storing laptop computers in the trunks of vehicles, and securing
       laptop computers at home or alternate work locations.
    2. Periodically publicize an explanation of employees’ responsibilities for preventing the
       loss of computer equipment and taxpayer data, the associated disciplinary penalties for
       negligence over these responsibilities, and a statistical summary of actual violations and
       disciplinary actions relating to loss of computer equipment and taxpayer data.
The IRS agreed with our finding and recommendations. The IRS also informed us that it has
taken the following additional actions to address the loss of PII:
    •   Established a policy to notify individuals of the loss of their PII.
    •   Defined roles and responsibilities in the IRS’ incident management process.
    •   Created a PII Incident Risk Analysis Methodology that it will use to categorize incidents
        and determine the appropriate IRS response.
    •   Created a PII Incident Notification Letter, which will be used to notify individuals whose
        PII has been compromised.

Employees were not encrypting PII on their laptop computers and other
electronic media8
We selected 100 laptop computers from 4 IRS offices that support the Wage and Investment,
Small Business/Self-Employed, and Large and Midsize Business Divisions and found that
44 of the 100 laptop computers contained unencrypted PII data such as:
    •   Individual Income Tax Returns (Form 1040).
    •   U.S. Corporation Income Tax Returns (Form 1120).
    •   Audit-related information, such as case history on current audits and financial data of
        taxpayers being audited.
    •   Various IRS forms with Social Security Numbers.

8
 The Internal Revenue Service Is Not Adequately Protecting Taxpayer Data on Laptop Computers and Other
Portable Electronic Media Devices (Reference Number 2007-20-048, dated March 23, 2007).
                                                                                                     Page 6
                         Efforts Have Been Made, but Manager and Employee
                      Noncompliance With Security Policies and Procedures Puts
                              Personally Identifiable Information at Risk



    •    Employee evaluations, timesheets, and applications for reassignment.
In addition to the lack of encryption of PII on laptop computers, we found other computer
devices on which PII was not always encrypted. Of the 100 employees in our sample, we found
54 were using various other electronic devices such as floppy disks, CDs, and DVDs to store
unencrypted PII. Employees were using unencrypted CDs to backup taxpayer case information,
to store grand jury information,9 and to retain other PII provided by taxpayers.
The Office of Management and Budget requires agencies to ensure PII is encrypted on laptop
computers and other electronic devices. To help employees encrypt the data, the IRS provided
two encryption tools. First, laptop computers were configured to encrypt PII residing in specific
file folders on the laptop computer’s internal hard drive. This encryption tool is part of the
computer’s operating system. Employees need only save PII to these folders and the computer
will automatically encrypt the data. The second encryption tool provided by IRS management is
the WinZip software program, which is particularly useful when encrypting files not stored on
the computers’ internal drive, such as CDs and DVDs.
Despite the availability of the encryption tools, employees frequently chose not to encrypt PII.
The employees placed the PII outside of the designated file folders for their own convenience or
because they were unaware of the requirement to place the PII into the file folders. Some
employees did not know their personal data were considered PII.
By not encrypting PII on laptop computers and other electronic devices, the IRS is needlessly
exposing the data to unauthorized access, theft, or loss.
We recommended the Chief Information Officer:
    1. Include a reminder, in the annual certification of security awareness, that employees
       should store encrypted sensitive information in a secure location on their laptop
       computers and show them how to use commercial software approved by the IRS to
       encrypt sensitive data on electronic media devices, such as flash drives.
    2. Require front-line managers to periodically check their employees’ laptop computers to
       ensure encryption solutions are being used by employees and sensitive data are encrypted
       properly.
    3. Consider implementing a systemic disk encryption solution on laptop computers. When
       the entire hard drive is encrypted, employees will no longer have to determine what data
       need to be encrypted. This solution will supplement the two existing encryption solutions
       previously discussed.


9
  Grand jury information is all matters occurring before the grand jury. The grand jury is a jury of 12 to 23 persons
convening in private sessions to evaluate accusations against persons charged with a crime and to determine whether
the evidence warrants a bill of indictment.
                                                                                                             Page 7
                        Efforts Have Been Made, but Manager and Employee
                     Noncompliance With Security Policies and Procedures Puts
                             Personally Identifiable Information at Risk



The IRS agreed with our finding and recommendations. On March 5, 2007, the IRS informed us
it had implemented a systemic disk encryption solution on laptop computers. This solution is
intended to encrypt the entire hard drive of the laptop computer and requires access
authentication, via login and password, whenever the laptop has been turned off. If the laptop
computer is lost or stolen, unauthorized users would likely be unable to access any data on the
hard drive.

Employees continue to be susceptible to social engineering attempts10
We were able to convince 61 managers and employees to give us their usernames and to change
their passwords to one that we suggested. We conducted this review by calling 102 managers
and employees and posing as computer support helpdesk personnel seeking assistance to correct
a network problem. This common hacker tactic is referred to as social engineering, which
involves exploiting the human aspect of computer security for the purpose of gaining insider
information about an organization’s computer resources.
The IRS’ computer security procedures require employees to protect their usernames and
passwords. Managers and employees must acknowledge the computer security rules prior to
obtaining access to any IRS computer systems and annually recertify they are aware of their
responsibilities. In addition, the IRS has posted these requirements and password security rules
on its internal web site. The web site also has a document describing social engineering and
providing examples of social engineering attempts, specifically mentioning the use of telephone
calls to conduct social engineering attacks. While these awareness efforts are notable, our tests
continue to show that some managers and employees still do not understand the rudimentary
computer security practices of protecting their passwords.
The above conditions were particularly alarming because we had conducted similar social
engineering test telephone calls in August 2001 and December 2004. Our August 2001 and
December 2004 test calls yielded a 71 percent and 35 percent noncompliance rate, respectively.
In response to these two prior audits, the IRS took corrective actions to raise awareness over
password protection requirements and social engineering attempts. However, the corrective
actions have not been effective. Based on the results of this audit, we concluded employees
either do not fully understand security requirements for password protection or do not place a
sufficiently high priority on protecting taxpayer data in their day-to-day work. In an attempt to
better understand employee behavior, we asked the employees in our sample why they did not
comply with guidelines for protecting their passwords. Some of the notable reasons given were
that they thought the scenario sounded legitimate and believable, did not think that changing
their password was the same as disclosing their password, or had experienced past computer
problems.

10
  Employees Continue to Be Susceptible to Social Engineering Attempts That Could Be Used by Hackers
(Reference Number 2007-20-107, dated July 20, 2007).

                                                                                                      Page 8
                        Efforts Have Been Made, but Manager and Employee
                     Noncompliance With Security Policies and Procedures Puts
                             Personally Identifiable Information at Risk



When employees are susceptible to social engineering attempts, the IRS is at risk of providing
unauthorized persons access to computer resources and taxpayer data. With an employee’s
username and password, a hacker could gain access to PII on IRS computer systems. The hacker
would gain the same access privilege as the employee. Even more significant, a disgruntled
employee could use the same social engineering tactics to obtain another employee’s username
and password. With insider knowledge of IRS systems and applications, the disgruntled
employee could more easily gain unauthorized access to IRS data as well as disrupt computer
operations.
We recommended the Chief, Mission Assurance and Security Services, continue security
awareness activities to remind employees of the potential social engineering attempts, conduct
internal social engineering tests on a periodic basis to increase employee awareness of the need
to protect usernames and passwords, and coordinate with business units to emphasize the need to
discipline employees for security violations resulting from negligence or carelessness.
The IRS agreed with our findings and recommendations.

Employees were not following the IRS email use policy11
To determine whether IRS employees were complying with the IRS’ personal use policy, we
selected a statistical sample of 96 employees from its list of email addresses and reviewed
46,551 emails received and sent by these employees during June through August 2005. We
found 2,576 messages in 71 (74 percent) of the 96 employee mailboxes that violated the IRS’
personal use policy. These employees had from 1 to 288 inappropriate emails in their mailboxes.
Specifically, we found the following types of inappropriate emails:
     •   Chain letters, jokes, and/or pictures accounted for 76 percent of the inappropriate emails.
         The content is often considered harmless on its own; however, it is well known that these
         messages present a security threat by being common carriers of malicious software.12
     •   Emails containing content considered offensive according to IRS guidelines accounted
         for 20 percent of the inappropriate emails. These emails contained hate speech and
         material that ridiculed others on the basis of race, creed, religion, color, sex, disability,
         national origin, or sexual orientation.
     •   Emails containing sexually oriented content, prohibited activities, and/or large files
         accounted for the remaining 4 percent of the inappropriate messages. Prohibited
         activities include activities conducted for commercial purposes, in support of for-profit
         activities, or in support of other outside employment.

11
   Inappropriate Use of Email by Employees and System Configuration Management Weaknesses Are Creating
Security Risks (Reference Number 2006-20-110, dated July 31, 2006).
12
   Malicious software is designed to infiltrate or damage a computer system, without the owner’s consent. It
includes computer viruses, spyware, and adware.
                                                                                                         Page 9
                         Efforts Have Been Made, but Manager and Employee
                      Noncompliance With Security Policies and Procedures Puts
                              Personally Identifiable Information at Risk



Figure 1 summarizes these email policy violations by type.
                            Figure 1: Email Policy Violations by Type

                                 Chain Letters                                1,953

                                 Offensive Content                            528
                                 Sexually Oriented Content                     55
                                 Prohibited Activities                         22
                                 Large Files (graphics, video, sound, etc.)    18

                                 TOTAL                                        2,576

                              Source: Our analysis of a sample of 96 IRS employees’
                              email messages.

In May 2002, the IRS implemented a limited personal use policy for the Internet, email, and
other equipment and resources.13 The policy cautions employees to conduct themselves
professionally and to refrain from using Federal Government information technology equipment
for activities that are inappropriate based on established standards of conduct. The IRS considers
email as inappropriate if it contains large, nonbusiness file attachments; chain letters; jokes;
material that is offensive to other employees; or sexually oriented material. Email pertaining to
illegal activities and other outside activities, such as running a business, fundraising, or restricted
political activity, is also considered inappropriate.
We believe the high number of email policy violations occurred because the IRS has not
effectively monitored the email of its employees to ensure compliance with the policy and has
taken relatively few disciplinary actions on those employees who violate the policy. Between
Fiscal Years 2003 and 2005, the IRS disciplined only 283 employees for abuse of email
privileges. Of the 283 employees, 193 received written or oral counseling; 86 received formal
disciplinary actions including admonishments, reprimands, suspensions, and removal; and
4 resigned. One additional case was referred to the Treasury Inspector General for Tax
Administration Office of Investigations.
The large number of inappropriate emails places the IRS network at risk. For example,
malicious software could be attached to these emails that could destroy data on the computer,
enable unauthorized persons to access PII, and/or disrupt computer operations by causing a
denial of service attack.14


13
  IRS Policy on Limited Personal Use of Government Information Technology Equipment/Resources.
14
  A denial of service attack inundates a computer system or network with traffic that overloads the system
resources, causing them to cease operations or lose network connectivity.
                                                                                                             Page 10
                       Efforts Have Been Made, but Manager and Employee
                    Noncompliance With Security Policies and Procedures Puts
                            Personally Identifiable Information at Risk



In addition to the security risks, the performance and efficiency of the IRS’ computing network
is degraded by the number and size of inappropriate email messages. Many of the sampled
messages contained graphics, sound, video, and/or animations that significantly increased the
sizes of the files. Inclusion of these unnecessary features in an email message often increases a
message’s size from 10 times to 50 times the size of a normal text message, causing the system
to operate slower and less efficiently, and creates the need for additional storage capacity that
can be costly.
Offensive and inappropriate content in messages can also damage employee relationships and
lead to adverse personnel actions or potential lawsuits. When forwarded to outside recipients,
these messages could also invite high-profile media attention, thus damaging the IRS’ reputation.
We recommended the Chief, Mission Assurance and Security Services:
     1. Continue to emphasize the risks associated with inappropriate email use. If reminders
        that disciplinary actions have been taken against employees for email abuse are added to
        existing security awareness training, the number of violations may be reduced.
     2. Consider implementing a program of monitoring email message content, which could
        subsequently increase the number of employees disciplined for abusing their email
        privileges. This approach will require a commitment of additional resources. However,
        considering the risks of subjecting the IRS network to malicious software, we believe this
        commitment is necessary.
The IRS agreed with our findings and recommendations.

Managers gave employees access to systems they did not need15
In an audit covering five systems in several IRS offices, managers and system administrators did
not ensure user accounts for employees were removed from systems when employees left the
IRS, transferred to another function, or changed job responsibilities. We identified
139 (21 percent) of 652 employees with active user accounts who, according to their managers,
no longer had a business need to have system access. Keeping unneeded user accounts active
increased the risk that unauthorized users could gain access to taxpayer data.
For the 513 employees who had a need to access the systems, we found no documentation that
128 (25 percent) had been properly authorized. Without the documentation, it was impossible to
determine how these employees obtained access to the systems. We believe either managers did
not carry out their responsibilities for formally approving employees’ access or system
administrators may have added employees to systems without a manager’s authorization. When



15
 Managers and System Administrators Need to Limit Employees’ Access to Computer Systems (Reference
Number 2005-20-097, dated July 2005).
                                                                                                     Page 11
                          Efforts Have Been Made, but Manager and Employee
                       Noncompliance With Security Policies and Procedures Puts
                               Personally Identifiable Information at Risk



these employees leave the IRS or no longer need access to a system, their managers may not
know they had access and the accounts will remain active.
A fundamental goal of the IRS’ computer modernization activities has been to provide more
information to employees to improve their effectiveness and efficiency. New systems being
developed will have the capability to provide even more information to these employees, which
could actually increase the risk that the privacy of taxpayer information will be violated. The
IRS will have to be more diligent in limiting employee access to a need-to-know basis.
We recommended the Chief Information Officer:
     •   Enforce current procedures by configuring systems to automatically disable employees’
         accounts after 45 days of inactivity and to automatically delete the accounts after 90 days
         of inactivity.
We also recommended the Chief, Mission Assurance and Security Services:
     •   Coordinate with the business units to include tests of access controls during annual
         self-assessments required by the Federal Information Security Management Act. These
         reviews should reinforce to business unit managers the need to limit access to systems.
The IRS agreed with our findings and recommendations.

Managers were not consistently reviewing audit trail16 information to identify
unauthorized accesses to taxpayer accounts17
We determined a majority of IRS managers were not investigating potential unauthorized
accesses to the Integrated Data Retrieval System (IDRS).18 The IDRS is a mission critical
system that contains PII such as taxpayers’ names, Social Security Numbers, birth dates,
addresses, and income. As stated earlier, the IRS operates about 240 computer systems that
process PII. The IDRS is one such computer system on which audit trails are maintained and
reviewed for questionable accesses.
IRS business unit managers must review and certify the following four IDRS Security Reports
using the IDRS Online Reports Services system:19



16
   An audit trail is a chronological record of activities that allow for the reconstruction, review, and examination of a
transaction from inception to final results. Audit trails can be used to detect unauthorized accesses to PII.
17
   Increased Managerial Attention Is Needed to Ensure Taxpayer Accounts Are Monitored to Detect Unauthorized
Employee Accesses (Reference Number 2006-20-111, dated July 24, 2006).
18
   IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
19
   This system is a web-based application that provides business unit managers and data security staffs online access
to security reports based on the IDRS audit trail information.
                                                                                                               Page 12
                     Efforts Have Been Made, but Manager and Employee
                  Noncompliance With Security Policies and Procedures Puts
                          Personally Identifiable Information at Risk



   •   Sensitive Access Report – Issued weekly; identifies IRS employees who have accessed
       another employee’s or an employee’s spouse’s tax accounts. The IRS requires business
       unit managers to determine whether employees made these accesses for work-related
       reasons. Business unit managers must take appropriate steps, including research on the
       IDRS and review of case assignment files, to identify the employees’ reasons for the
       accesses. If needed, business unit managers may also interview the employees.
   •   Security Violations Report – Issued weekly; identifies unsuccessful logon attempts and
       employees who left their computers without logging off. Business unit managers should
       discuss these violations with their employees to determine whether unauthorized persons
       were trying to guess their passwords and whether the employees need additional training
       on using the IDRS.
   •   IDRS Security Profile Reports (2 reports) – Issued monthly and quarterly; identifies
       employees’ capabilities on the IDRS and attempted accesses to taxpayer accounts using
       unauthorized command codes. Business unit managers should review these reports to
       ensure employees only have the access capabilities they need to perform their
       responsibilities and to determine whether all attempted accesses to taxpayer accounts
       using unauthorized command codes were unintentional errors.
IRS procedures require managers to review and certify the weekly IDRS Security Reports within
14 calendar days of receipt and the monthly and quarterly Security Profile Reports within
28 calendar days of receipt. For September 2005, we determined only 42 percent of IRS
managers certified their IDRS Security Reports. Only 36 percent of these certifications were
performed timely.
The Mission Assurance and Security Services organization and IRS business units have not
sufficiently emphasized the need for business unit managers to review IDRS security reports and
have not held their managers accountable for reviewing these reports on a regular basis. Without
these reviews, the IRS cannot detect unauthorized accesses to PII. Employees may be browsing
their neighbors’ or other employees’ tax accounts with little chance of detection.
We recommended the Chief, Mission Assurance and Security Services:
   •   Coordinate with IRS business units and place emphasis on the review of electronic IDRS
       Security Reports using the IDRS Online Reports Services system. Periodic compliance
       reviews should be conducted to ensure business units carry out their responsibilities to
       review IDRS Security Reports.
We also recommended the Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement:
   •   Ensure all business unit managers’ operational review requirements are updated to
       include a step to validate that all IDRS Online Reports Services system-related reports

                                                                                         Page 13
                         Efforts Have Been Made, but Manager and Employee
                      Noncompliance With Security Policies and Procedures Puts
                              Personally Identifiable Information at Risk



         are certified timely (by the manager or designee) and to hold the business unit managers
         accountable for meeting their security-related responsibilities.
The IRS agreed with our findings and recommendations.

Key security employees were not following security procedures, which allowed
the IRS network system to remain vulnerable to insider attacks20
Our reviews of the IRS internal network system have identified persistent security weaknesses.
In June 2005, we contracted with a computer security company to provide an objective internal
network security review. This internal penetration test of the IRS network system identified
six high-risk vulnerabilities that could allow an unauthorized person to gain access to PII. The
following three vulnerabilities are well-known in the hacker community and related to incorrect
or incomplete installation of software applications:
     •   Blank passwords to system administrator accounts on a database application were not
         changed. When the database application is installed, it contains a system administrator
         user account with a blank password. The database application vendor instructions and
         IRS installation procedures require changing the password to one that meets the IRS
         standard password configuration.
     •   Default logons and passwords on another database application were not changed. When
         the database application is installed, it contains default logons and passwords that are
         readily available from the Internet. The vendor’s instructions and IRS installation
         procedures require changing or removing the default logons and passwords.
     •   Unneeded services were not removed, and security features such as patches21 were not
         installed or updated. The operating system vulnerability, known as sadmind, is caused by
         not removing unneeded services and not adding security features patches. This
         vulnerability can be used to gain control of the host machine.
These three vulnerabilities were also identified and reported in our 2004 Penetration Test report
and two of the three were reported in our 2003 Penetration Test report.22
IRS procedures provide adequate guidance to system and database administrators that, if
followed, would have eliminated the above vulnerabilities. However, the vulnerabilities



20
   Internal Penetration Test of the Internal Revenue Service’s Networked Computer Systems (Reference
Number 2005-20-144, dated September 2005).
21
   A patch is a fix of a design flaw in a computer program. Patches must be installed or applied to the appropriate
computer for the flaw to be corrected.
22
   Penetration Test of Internal Revenue Service Computer Systems (Reference Number 2004-20-073, dated
April 2004) and Penetration Test of Internal Revenue Service Computer Systems (Reference Number 2003-20-082,
dated March 2003).
                                                                                                           Page 14
                        Efforts Have Been Made, but Manager and Employee
                     Noncompliance With Security Policies and Procedures Puts
                             Personally Identifiable Information at Risk



persisted because system administrators chose to ignore controls for their own convenience and
were not held accountable for complying with procedures.
When key security employees such as system administrators and database administrators do not
follow IRS procedures, security risks and vulnerabilities exist that could permit the loss of PII.
The risk to the IRS network system is especially high because a significant number of employees
and contractors have access to the network.
We recommended the Chief Information Officer:
     1. Examine the IRS’ internal network to identify and correct the three exploited
        vulnerabilities. Specifically, the Chief Information Officer should ensure blank
        passwords for system administrator accounts on the databases are changed, default logons
        and passwords are changed, and sadmind vulnerabilities on computers with UNIX
        operating systems are corrected.
     2. Enforce accountability and increase the awareness of database administrators and system
        administrators regarding the correct installation procedures for software, particularly
        database software.
The IRS agreed with our findings and recommendations.

The IRS and its contractors were not integrating security controls into
modernized computer systems23
We identified several security technical control weaknesses in five modernization systems and
the security infrastructure we reviewed, many of which could have been addressed during the
development phase24 of the systems as recommended by industry experts. For example, audit
trails were not functioning and disaster recovery plans were not considered for the modernized
systems we reviewed. In addition, documentation for the modernization systems indicated a lack
of emphasis on security controls because it provided only general or outdated descriptions of
security requirements.
The Mission Assurance and Security Services organization, the Business Systems Modernization
Office (now called the Applications Development organization), and the PRIME contractor25 are


23
   Security Controls Were Not Adequately Considered in the Development and Integration Phases of Modernization
Systems (Reference Number 2005-20-128, dated August 2005). We judgmentally selected and reviewed the
e-Services, Internet Refund Fact of Filing, Modernized e-File, Custodial Accounting Project, and Customer Account
Data Engine modernization projects.
24
   The development phase of a computer modernization project includes the analysis, design, construction, and
testing of the new computer system.
25
   The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
                                                                                                        Page 15
                         Efforts Have Been Made, but Manager and Employee
                      Noncompliance With Security Policies and Procedures Puts
                              Personally Identifiable Information at Risk



responsible for incorporating security controls into modernization systems. The Mission
Assurance and Security Services organization is responsible for establishing security standards
for all computer systems. The Business Systems Modernization Office is responsible for
ensuring security controls are considered and integrated in modernization systems. For the
systems we reviewed, the Business Systems Modernization Office contracted with the PRIME
contractor to develop security controls in accordance with IRS standards.
The PRIME contractor focused on developing systems that would function but did not provide
sufficient emphasis on the identification and development of security controls. In addition, the
Mission Assurance and Security Services organization was not sufficiently involved during the
early development stages of the systems. More involvement was needed to hold the PRIME
contractor accountable and to encourage the contractor to develop adequate security controls
when the systems were being developed.
Waiting until systems are implemented to address security controls will most likely cost
significantly more than if security controls had been considered during the development of the
systems.
We recommended the Chief Information Officer:
     1. Provide oversight to ensure coordination between the Business Systems Modernization
        Office and its contractors. The Business Systems Modernization Office should retain the
        overall responsibility for ensuring security controls are provided in the development
        phase of new projects.
     2. Revise the Enterprise Life Cycle26 to require disaster recovery planning during the
        development phase. A complete Disaster Recovery Plan should be required that
        addresses all modernization systems. During development, computer capacity and
        business resumption requirements should be gathered and considered.
     3. Ensure audit trail data captured for the Customer Account Data Engine27 are retained and
        reviewed to detect unauthorized accesses.
The IRS agreed with the finding and the first two recommendations but disagreed with the third
recommendation. The log and audit files used by the Customer Account Data Engine system
programmers are established for recovery and diagnostic purposes and do not capture data
related to unauthorized access. Currently, the Customer Account Data Engine has no support for
external data inquiry.



26
   The Enterprise Life Cycle is the set of repeatable processes the IRS and its contractors follow to modernize the
IRS’ computer systems.
27
   The Customer Account Data Engine is an online modernization data infrastructure that will house taxpayer
accounts and tax returns.
                                                                                                             Page 16
                     Efforts Have Been Made, but Manager and Employee
                  Noncompliance With Security Policies and Procedures Puts
                          Personally Identifiable Information at Risk



We continue to believe audit trail information for the Customer Account Data Engine should be
retained and reviewed because it currently contains tax information for more than 1.3 million
returns that could be accessed by some IRS employees for unauthorized purposes and potentially
used for identity theft purposes. Accordingly, audit trail information must be maintained to
comply with Department of the Treasury requirements.
We also recommended the Chief, Mission Assurance and Security Services:
   4. Participate in the development phase of new systems and ensure security controls are
      built into the systems.
The IRS agreed with the recommendation.




                                                                                       Page 17
                     Efforts Have Been Made, but Manager and Employee
                  Noncompliance With Security Policies and Procedures Puts
                          Personally Identifiable Information at Risk



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the progress the IRS has made in ensuring
the security and privacy of PII it maintains. To accomplish our objective, we:
I.     Summarized the progress the IRS has achieved in securing the privacy of PII.
       A. Interviewed the Director of the IRS Office of Privacy and Information Protection to
          determine the progress achieved during Fiscal Years 2003 – 2007. We reviewed
          documentation provided by the Director of the Office of Privacy and Information
          Protection.
       B. Reviewed the Treasury Inspector General for Tax Administration security-related
          audit reports issued during Fiscal Years 2003 – 2007 and identified the positive issues
          reported.
       C. Reviewed the policy and process review entitled, “Protection of Personally
          Identifiable Information,” that was completed by the IRS Chief Privacy Officer on
          June 26, 2006.
       D. Reviewed the Identity Theft Risk Assessment report prepared by Deloitte Consulting
          on October 16, 2006.
II.    Reviewed audit reports issued by the Treasury Inspector General for Tax Administration
       during Fiscal Years 2003 – 2007 to identify the most significant security-related
       weaknesses reported.
III.   Identified the overall causes for the weaknesses identified in Step II.




                                                                                         Page 18
                    Efforts Have Been Made, but Manager and Employee
                 Noncompliance With Security Policies and Procedures Puts
                         Personally Identifiable Information at Risk



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Allen Gray, Lead Auditor
Myron Gulley, Senior Auditor




                                                                                     Page 19
                    Efforts Have Been Made, but Manager and Employee
                 Noncompliance With Security Policies and Procedures Puts
                         Personally Identifiable Information at Risk



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Chief Information Officer OS:CIO




                                                                       Page 20
                      Efforts Have Been Made, but Manager and Employee
                   Noncompliance With Security Policies and Procedures Puts
                           Personally Identifiable Information at Risk



                                                                                  Appendix IV

              List of Security-Related Audit Reports

This report refers to the following security-related audit reports issued during Fiscal
Years 2003 – 2007. The prior reports are listed in order of appearance in this report.
•   The Internal Revenue Service Is Not Adequately Protecting Taxpayer Data on Laptop
    Computers and Other Portable Electronic Media Devices (Reference Number 2007-20-048,
    dated March 23, 2007).
•   Employees Continue to Be Susceptible to Social Engineering Attempts That Could Be Used
    by Hackers (Reference Number 2007-20-107, dated July 20, 2007).
•   Inappropriate Use of Email by Employees and System Configuration Management
    Weaknesses Are Creating Security Risks (Reference Number 2006-20-110, dated
    July 31, 2006).
•   Managers and System Administrators Need to Limit Employees’ Access to Computer Systems
    (Reference Number 2005-20-097, dated July 2005).
•   Increased Managerial Attention Is Needed to Ensure Taxpayer Accounts Are Monitored to
    Detect Unauthorized Employee Accesses (Reference Number 2006-20-111, dated
    July 24, 2006).
•   Internal Penetration Test of the Internal Revenue Service’s Networked Computer Systems
    (Reference Number 2005-20-144, dated September 2005).
•   Penetration Test of Internal Revenue Service Computer Systems (Reference
    Number 2004-20-073, dated April 2004).
•   Penetration Test of Internal Revenue Service Computer Systems (Reference
    Number 2003-20-082, dated March 2003).
•   Security Controls Were Not Adequately Considered in the Development and Integration
    Phases of Modernization Systems (Reference Number 2005-20-128, dated August 2005).




                                                                                          Page 21
        Efforts Have Been Made, but Manager and Employee
     Noncompliance With Security Policies and Procedures Puts
             Personally Identifiable Information at Risk



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 22
   Efforts Have Been Made, but Manager and Employee
Noncompliance With Security Policies and Procedures Puts
        Personally Identifiable Information at Risk




                                                     Page 23
